TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Attestation Review of the Internal Revenue
                      Service’s Fiscal Year 2008 Annual
                    Accounting of Drug Control Funds and
                             Related Performance



                                        January 30, 2009

                              Reference Number: 2009-10-040




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           January 30, 2009


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Attestation Review of the Internal Revenue
                             Service’s Fiscal Year 2008 Annual Accounting of Drug Control Funds
                             and Related Performance (Audit # 200810034)

 This report presents the results of our attestation review of the Internal Revenue Service’s (IRS)
 Fiscal Year (FY) 2008 Office of National Drug Control Policy (ONDCP) Detailed Accounting
 Submission and Performance Summary Report (the Report). The purpose of this review was to
 express a conclusion about the reliability of each assertion made in the Report.

 Impact on the Taxpayer
 The IRS reported that it expended $64.2 million on ONDCP-related activities and participated
 in 478 ONDCP-related cases that resulted in convictions in FY 2008. Overall, the methodology
 used to prepare the IRS’ FY 2008 Report was clearly explained and adequately documented.
 However, we determined that the performance information reported by the IRS includes a small
 number of cases from fiscal years prior to FY 2008. For example, 18 of the 478 convictions
 reported actually occurred prior to FY 2008 and, therefore, should not be included in the
 FY 2008 measure. Complete and reliable financial and performance information is critical to the
 IRS’ ability to accurately report on the results of its operations to both internal and external
 stakeholders, including taxpayers.
                        Attestation Review of the Internal Revenue Service’s
                     Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                     and Related Performance



Synopsis
Overall, we found that the methodology used to prepare the IRS’ FY 2008 Report was clearly
explained and adequately documented. In response to our FY 2007 attestation report,1 and to
better represent program effectiveness, the IRS began reporting the number of convictions and
conviction rate related to its participation in ONDCP-related cases. For FY 2008, the IRS
reported 478 cases that resulted in convictions and an overall conviction rate of 87.9 percent.
While this additional reporting is a positive step in improving the reporting of performance
measures, our testing indicated that 18 of the 478 convictions actually occurred prior to FY 2008
and, therefore, should not be included in the FY 2008 measure. We similarly found that 3 of the
827 ONDCP-related investigations reported as completed in FY 2008 were actually completed
prior to FY 2008.
We also identified 18 cases among the cases the IRS reported as recommended for prosecution,
but ultimately resulted in acquittal or dismissal, that occurred prior to FY 2008. The IRS
informed us that it does not adjust its reporting to account for timing differences resulting from
the sometimes delayed posting of case results. Not accounting for these timing differences
adversely impacts the reliability of IRS performance information. Specifically, the IRS’
conviction rate would be 90.6 percent by omitting these 36 cases that resulted in a conviction,
acquittal, or dismissal prior to FY 2008 instead of the 87.9 percent reported. Notably, these
timing differences may also be present and result in the reporting of FY 2008 cases as occurring
during FY 2009, further obscuring the correct calculation of the FY 2008 performance measures
including the conviction rate. Because of the limited-scope nature of our review, we did not
perform indepth testing of IRS records necessary to identify potential errors of this type, nor did
we analyze in detail the specific causes for the delayed postings we identified.
Based on our review, with the exception of the matters discussed above, nothing came to our
attention to indicate that the assertions are not presented in all material respects in accordance
with ONDCP-established criteria.

Recommendation
We recommended the Chief Financial Officer, in coordination with the Chief, Criminal
Investigation Division, evaluate the cause of the delayed case postings we identified and based
on this analysis, evaluate the feasibility of either improving the timeliness of its case postings
and/or adjusting its yearend performance information to reflect timing differences caused by late
postings of case information.


1
 Attestation Review of the Internal Revenue Service’s Fiscal Year 2007 Annual Accounting of Drug Control Funds
and Related Performance (Reference Number 2008-10-058, dated January 31, 2008).
                                                                                                                 2
                      Attestation Review of the Internal Revenue Service’s
                   Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                   and Related Performance



Response
IRS management agreed with our recommendation. For its FY 2009 report on accounting of
drug control funds, the IRS will include only those investigations completed within the fiscal
year in the performance results. In addition, the IRS adjusted its reporting of FY 2008
performance information to reflect timing differences caused by late postings of case information
and included this revised reporting in its response. Management’s complete response to the draft
report is included as Appendix VI.

Office of Audit Comment
In responding to our report, the IRS provided a revised reporting of its FY 2008 performance
information to reflect timing differences. Because of the time limitations imposed by the
mandatory reporting deadline of this review, we did not evaluate or perform any testing relating
to the IRS’ revised reporting.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                   3
                             Attestation Review of the Internal Revenue Service’s
                          Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                          and Related Performance




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Methodology Used to Prepare the Fiscal Year 2008 Annual
          Accounting of Drug Control Funds and Related Performance Summary
          Report Was Clearly Explained and Adequately Documented,
          but Improvements Are Needed to Ensure Data Accuracy ............................Page 3
                    Recommendation 1:..........................................................Page 4


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measure ................................................................Page 10
          Appendix V – Internal Revenue Service Fiscal Year 2008 Detailed
          Accounting Submission and Related Performance Summary Report ..........Page 11
          Appendix VI – Management’s Response to the Draft Report ......................Page 17
           Attestation Review of the Internal Revenue Service’s
        Fiscal Year 2008 Annual Accounting of Drug Control Funds
                        and Related Performance




                     Abbreviations

FY             Fiscal Year
IRS            Internal Revenue Service
ONDCP          Office of National Drug Control Policy
                         Attestation Review of the Internal Revenue Service’s
                      Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                      and Related Performance




                                           Background

The Anti-Drug Abuse Act of 19881 establishes as a
policy goal the creation of a drug-free America. A key            National Drug Control Program
                                                                 agencies are required to submit
provision of the Act is the establishment of the Office of         to the Director of the ONDCP,
National Drug Control Policy (ONDCP) to set priorities,          not later than February 1 of each
implement a national strategy, and certify Federal               year, a detailed accounting of all
Government drug control budgets. The Internal                       funds expended during the
Revenue Service (IRS) supports the National Drug                        previous fiscal year.
Control Strategy through continued support of the
Organized Crime and Drug Enforcement Task Force.
The mission of the Criminal Investigation Division in Federal law enforcement’s anti-drug
efforts is to reduce or eliminate the financial gains (profits) of major narcotics trafficking and
money laundering organizations through the use of its unique financial investigative expertise
and statutory jurisdiction.
This review was conducted as required by the National Drug Control Policy (21 U.S.C.
Section 1704(d)) and ONDCP Circular, Annual Accounting of Drug Control Funds, dated
May 1, 2007. The National Drug Control Program agencies2 are required to submit to the
Director of the ONDCP, not later than February 1 of each year, a detailed accounting of all funds
expended (the ONDCP Circular requires amounts obligated) during the previous fiscal year.
Agencies also need to identify and document performance measure(s) that justify the results
associated with these expenditures. The Chief Financial Officer, or another accountable senior
level executive, of each agency for which a Detailed Accounting Submission is required, shall
provide a Performance Summary Report to the Director of National Drug Control Policy.
Further, the Circular requires that each report be provided to the agency’s Inspector General for
the purpose of expressing a conclusion about the reliability of each assertion made in the report
prior to its submission. Beginning in Fiscal Year (FY) 2006, ONDCP funding became a part of
the IRS budget. In prior years, IRS-related ONDCP funds expended were reimbursed by the
Department of Justice.
We conducted our fieldwork in the IRS Headquarters offices of the Chief Financial Officer and
Chief, Criminal Investigation Division, during the period of October 2008 through January 2009.
Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants. An attestation review is substantially less in scope


1
 P.L. 105-277 (Division C-Title VII), Section 707(d).
2
 A National Drug Control Program agency is defined as any agency that is responsible for implementing any aspect
of the National Drug Control Strategy.
                                                                                                        Page 1
                     Attestation Review of the Internal Revenue Service’s
                  Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                  and Related Performance



than an examination, the objective of which is the expression of an opinion on the ONDCP
Detailed Accounting Submission and Performance Summary Report. Accordingly, we do not
express such an opinion. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                        Page 2
                         Attestation Review of the Internal Revenue Service’s
                      Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                      and Related Performance




                                     Results of Review

The Methodology Used to Prepare the Fiscal Year 2008 Annual
Accounting of Drug Control Funds and Related Performance
Summary Report Was Clearly Explained and Adequately Documented,
but Improvements Are Needed to Ensure Data Accuracy
We reviewed the IRS’ ONDCP Detailed Accounting Submission and Performance Summary
Report (the Report) for FY 2008, which ended September 30, 2008 (see Appendix V). This
Report was prepared pursuant to 21 U.S.C. § 1704(d) and the ONDCP Circular Annual
Accounting of Drug Control Funds. The IRS is responsible for preparing the report.
The Report assertions, as required by Section 6.b. of the ONDCP Circular, include statements
that the methodology used is reasonable and accurate, including explanations and documentation
of estimation assumptions used; the methodology disclosed was the actual methodology used;
and the data presented are associated with obligations against a financial plan that reflects
changes, if made. The assertions, as required by Section 7.b. of the ONDCP Circular, include
statements that the performance reporting system is appropriate and applied, explanations for
not meeting any performance targets are reasonable, and methodology used to establish
performance targets is reasonable and correctly applied. ONDCP-established criteria include
well-documented sources of data, documented and explained calculations, and complete and fair
presentation of data from financial systems.
Overall, we found that the methodology used to prepare the IRS’ FY 2008 Report was clearly
explained and adequately documented. The IRS reported that it expended $64.2 million on
ONDCP-related activities and completed 827 ONDCP-related investigations in FY 2008. In
response to our FY 2007 attestation report,3 and to better represent program effectiveness, the
IRS began reporting the number of convictions and conviction rate related to its participation in
ONDCP-related cases. For FY 2008, the IRS reported 478 cases that resulted in convictions and
an overall conviction rate of 87.9 percent.
While this additional reporting is a positive step in improving the reporting of performance
measures, our testing indicated that 18 of the 478 convictions actually occurred prior to FY 2008
and, therefore, should not be included in the FY 2008 measure. We similarly found that 3 of the
827 ONDCP-related investigations reported as completed in FY 2008 were actually completed
prior to FY 2008. These 18 convictions and 3 completed investigations were included in the

3
 Attestation Review of the Internal Revenue Service’s Fiscal Year 2007 Annual Accounting of Drug Control Funds
and Related Performance (Reference Number 2008-10-058, dated January 31, 2008).
                                                                                                       Page 3
                       Attestation Review of the Internal Revenue Service’s
                    Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                    and Related Performance



FY 2008 performance measure because the IRS calculates its performance measures based
strictly on the date the case results are input into its management information system. We also
identified 18 cases among the cases the IRS reported as recommended for prosecution but
ultimately resulted in acquittal or dismissal that occurred prior to FY 2008. The IRS informed us
that it does not adjust its reporting to account for timing differences resulting from the sometimes
delayed posting of case results. The 39 total cases (18 convictions, 3 completed investigations,
and 18 acquittals or dismissals) we identified as completed or occurring prior to FY 2008
included 28 FY 2007 cases and 11 FY 2006 and prior cases.
Not accounting for these timing differences adversely affects the reliability of IRS performance
information. Specifically, the IRS’ conviction rate would be 90.6 percent by omitting these
36 cases that resulted in a conviction, acquittal, or dismissal prior to FY 2008 instead of the
87.9 percent reported. Notably, these timing differences may also be present and result in the
reporting of FY 2008 cases as occurring during FY 2009, further obscuring the correct
calculation of the FY 2008 performance measures including the conviction rate. Because of the
limited-scope nature of our review, we did not perform indepth testing of IRS records necessary
to identify potential errors of this type, nor did we analyze in detail the specific causes for the
delayed postings we identified.
Based on our review, with the exception of the matters discussed above, nothing came to our
attention to indicate that the assertions are not presented in all material respects in accordance
with ONDCP-established criteria.

Recommendation
Recommendation 1: The Chief Financial Officer, in coordination with the Chief, Criminal
Investigation Division, should evaluate the cause of the delayed case postings we identified and
based on this analysis, evaluate the feasibility of either improving the timeliness of its case
postings and/or adjusting its yearend performance information to reflect timing differences
caused by late postings of case information.
       Management’s Response: IRS management agreed with our recommendation. For
       its FY 2009 report on accounting of drug control funds, the IRS will include only those
       investigations completed within the fiscal year in the performance results. In addition,
       the IRS adjusted its reporting of FY 2008 performance information to reflect timing
       differences caused by late postings of case information.
       Office of Audit Comment: In responding to our report, the IRS provided a revised
       reporting of its FY 2008 performance information to reflect timing differences. Because
       of the time limitations imposed by the mandatory reporting deadline of this review, we
       did not evaluate or perform any testing relating to the IRS’ revised reporting.
                                              *****

                                                                                              Page 4
                      Attestation Review of the Internal Revenue Service’s
                   Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                   and Related Performance



While this report is an unrestricted public document, the information it contains is intended
solely for the use of the IRS, the United States Department of the Treasury, the ONDCP, and
Congress. It is not intended to be, and should not be, used by anyone other than these specified
parties.




                                                                                           Page 5
                     Attestation Review of the Internal Revenue Service’s
                  Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                  and Related Performance



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to perform an attestation review of the IRS’ reporting of FY 2008
ONDCP expenditures and related performance for the purpose of expressing a conclusion about
the reliability of each assertion made in the Detailed Accounting Submission and Performance
Summary Report. To accomplish our objective, we:
I.     Obtained an understanding of the process used to prepare the FY 2008 Detailed
       Accounting Submission and Performance Summary Report.
       A. Discussed the process to record and report ONDCP expenditures and performance
          information with responsible IRS personnel.
       B. Obtained documents such as written procedures, supporting worksheets, and
          recording modifications that evidence the methodology used.
II.    Evaluated the reasonableness of the drug methodology process.
       A. Reviewed data supporting the Detailed Accounting Submission to establish its
          relationship to the amounts being reported.
       B. Reviewed the estimation methods for consistency with reported amounts.
III.   Performed sufficient verifications of reported obligations to support our conclusion on
       the reliability of the assertions.
       A. Verified that the Detailed Accounting Submission included all of the elements
          specified in Section 6 of the ONDCP Circular: Annual Accounting of Drug Control
          Funds.
       B. Verified that the drug control budget submitted to the ONDCP was consistent with
          the Detailed Accounting Submission.
       C. Verified the mathematical accuracy of the obligations presented in the Table of the
          FY 2008 Drug Control Obligations.
       D. Traced the information contained in the Table of the FY 2008 Drug Control
          Obligations to the supporting documentation.
IV.    Evaluated the reasonableness of the methodology used to report performance information
       for National Drug Control Program activities.
       A. Reviewed data supporting the Performance Summary Report to establish its
          relationship to the National Drug Control program activities being reported.
                                                                                          Page 6
                   Attestation Review of the Internal Revenue Service’s
                Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                and Related Performance



     B. Reviewed the estimation methods for consistency with reported performance
        information.
V.   Performed sufficient verifications of reported performance information to support our
     conclusion of the reliability of the assertions.
     A. Verified that the Performance Summary Report includes all of the elements specified
        in Section 7 of the ONDCP Circular: Annual Accounting of Drug Control Funds.
     B. Verified the mathematical accuracy of the performance information presented.
     C. Traced the performance information presented to the supporting documentation.
     D. Reviewed the supporting documentation for reasonableness.




                                                                                       Page 7
                    Attestation Review of the Internal Revenue Service’s
                 Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                 and Related Performance



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Anthony J. Choma, Audit Manager
Angela Garner, Lead Auditor
Seth A. Siegel, Senior Auditor
Melvin Lindsey, Auditor




                                                                                   Page 8
                    Attestation Review of the Internal Revenue Service’s
                 Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                 and Related Performance



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation Division SE:CI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation Division SE:CI
       Chief Financial Officer OS:CFO




                                                                        Page 9
                      Attestation Review of the Internal Revenue Service’s
                   Fiscal Year 2008 Annual Accounting of Drug Control Funds
                                   and Related Performance



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 39 Cases (see page 3).

Methodology Used to Measure the Reported Benefit:
Our review found that the IRS included cases from prior years in its reporting of FY 2008
ONDCP-related investigations. Specifically, the IRS reported 827 completed investigations
during FY 2008. The IRS also reported that 478 cases resulted in convictions during FY 2008
corresponding to a conviction rate of 87.9 percent.
Our testing indicated that 18 of the 478 reported convictions and 18 cases that had been
recommended for prosecution but resulted in acquittals or dismissals occurred prior to FY 2008
but were used to compute the IRS’ FY 2008 conviction rate. We similarly found that 3 of the
827 ONDCP-related investigations reported as completed in FY 2008 were actually completed
prior to FY 2008. The IRS calculates its performance measures based strictly on the date the
case results are input into its management information system and it does not adjust its reporting
to account for timing differences resulting from the sometimes delayed posting of case results.




                                                                                           Page 10
            Attestation Review of the Internal Revenue Service’s
         Fiscal Year 2008 Annual Accounting of Drug Control Funds
                         and Related Performance



                                                        Appendix V

Internal Revenue Service Fiscal Year 2008 Detailed
 Accounting Submission and Related Performance
                Summary Report




                                                              Page 11
   Attestation Review of the Internal Revenue Service’s
Fiscal Year 2008 Annual Accounting of Drug Control Funds
                and Related Performance




                                                     Page 12
   Attestation Review of the Internal Revenue Service’s
Fiscal Year 2008 Annual Accounting of Drug Control Funds
                and Related Performance




                                                     Page 13
   Attestation Review of the Internal Revenue Service’s
Fiscal Year 2008 Annual Accounting of Drug Control Funds
                and Related Performance




                                                     Page 14
   Attestation Review of the Internal Revenue Service’s
Fiscal Year 2008 Annual Accounting of Drug Control Funds
                and Related Performance




                                                     Page 15
   Attestation Review of the Internal Revenue Service’s
Fiscal Year 2008 Annual Accounting of Drug Control Funds
                and Related Performance




                                                     Page 16
        Attestation Review of the Internal Revenue Service’s
     Fiscal Year 2008 Annual Accounting of Drug Control Funds
                     and Related Performance



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 17
   Attestation Review of the Internal Revenue Service’s
Fiscal Year 2008 Annual Accounting of Drug Control Funds
                and Related Performance




                                                     Page 18
   Attestation Review of the Internal Revenue Service’s
Fiscal Year 2008 Annual Accounting of Drug Control Funds
                and Related Performance




                                                     Page 19
   Attestation Review of the Internal Revenue Service’s
Fiscal Year 2008 Annual Accounting of Drug Control Funds
                and Related Performance




                                                     Page 20
   Attestation Review of the Internal Revenue Service’s
Fiscal Year 2008 Annual Accounting of Drug Control Funds
                and Related Performance




                                                     Page 21
   Attestation Review of the Internal Revenue Service’s
Fiscal Year 2008 Annual Accounting of Drug Control Funds
                and Related Performance




                                                     Page 22
   Attestation Review of the Internal Revenue Service’s
Fiscal Year 2008 Annual Accounting of Drug Control Funds
                and Related Performance




                                                     Page 23
